           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


        FISCAL YEAR 2002 QUICK
         RESPONSE ACTIVITIES
           SUMMARY REPORT


    December 2002   A-13-03-13031


  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   December 4, 2002                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management  Advisory Report: Fiscal Year 2002 Quick Response Activities Summary
        Report (A-13-03-13031)


        This Management Advisory Report provides you information on the Office of the
        Inspector General’s (OIG) Quick Response (QR) workload. The report describes the
        sources and types of QR activities and categorizes them in line with issues we identified
        to be among the top 10 challenges facing Social Security Administration (SSA)
        management. We prepared this report for your information and therefore it does not
        require that you take any action.

        Anticipating an increase in requests to provide information and advice to Congress,
        SSA management, and the general public, we established the QR Team within the
        Office of Audit. The QR Team performs short-duration, time-sensitive projects that
        address requests from the Congress, SSA management, the general public, and others.
        Unlike traditional audits and evaluations, QR projects are not planned or scheduled in
        advance.

        Additionally, the QR workload includes Congressional Response Reports that address
        special inquiries ranging from proposed or recently enacted legislation to SSA
        management issues. Congressional Response Reports differ from other inquiries in
        that they are short-duration evaluations/reviews that may require an intensive
        examination of programs, operations, policy and/or procedures.

        This report summarizes our QR activities from October 2001 through September 2002.
Page 2 – The Commissioner


NATURE AND SOURCE OF QUICK RESPONSE WORKLOAD
In Fiscal Year (FY) 2002, the QR Team issued 22 responses. This workload primarily
consisted of inquiries concerning SSA’s service delivery, the Representative Payment
Program, issues related to potential fraud, and human capital. Sources of these
inquiries included the Congress; SSA management; the general public; SSA OIG; and
others, such as other OIGs or agencies.1

The following chart shows the composition of the FY 2002 workload.


                              Quick Response Activities
                          6
                  6
                                       5                                      5
                  5


                  4
                                                     3           3
                  3


                  2


                  1


                  0
                      Congress    SSA Mgmt.      Public      SSA OIG       Other

                                                Sources


AGENCY MANAGEMENT CHALLENGES AND THE QUICK RESPONSE
WORKLOAD
The QR workload does not follow our traditional processes. Usually, Office of Audit
activities consist of planned audits and evaluations that directly relate to the
management challenges facing the Agency. In contrast, the QR workload consists of
unplanned, short-duration, time-sensitive projects. We categorized most of our QR
workload in line with the issues the OIG identified to be among the top 10 challenges
facing SSA management. We have highlighted several of our responses to inquiries
related to these challenges.



1
 The category “Other” includes inquiries from a Government employee, the Department of Army and the
OIGs for the Departments of Labor and Transportation.
Page 3 – The Commissioner


·   Service Delivery
·   Integrity of the Representative Payee Process
·   Fraud Risk
·   Human Capital

                  SSA is committed to providing citizen-centered, world-class service.
    Service
                  Providing quality service to the public remains a critical management
    Delivery      issue facing SSA. However, there are several significant issues that
                  affect SSA’s ability to deliver world-class service. One is the
complexity of the programs SSA administers. Another is the steady reduction in staffing
and the increase in workloads due to the “baby boomers” reaching retirement age.

Approximately 37 percent of SSA’s current workforce of approximately 62,000 is
projected to retire by the year 2010. With increasing workloads and expected human
capital shortages, SSA will be challenged as it moves to revitalize and strengthen future
employee ranks while addressing greater demands for services.

We received several inquiries from the Congress and the public that relate to SSA’s
service delivery. Examples of the types of inquiries we received in this area follow.

·   We reported2 to the House and Senate Appropriations Committees on the policies
    and procedures SSA has in place to give first priority to the location of new
    offices and other facilities in rural areas, as directed by the Rural Development Act of
    1972.

·   We responded3 to a congressional inquiry regarding a Washington, D.C., Office of
    Hearings and Appeals.

·   We responded to a claimant’s inquiry regarding the status of a reconsideration
    request and the appointment of a personal representative.

·   We responded to a claimant’s inquiry regarding the accuracy of a 2001 Form-SSA
    1099, Social Security Benefit Statement.




2
 Congressional Report: The Social Security Administration’s Policies and Procedures Concerning the
Rural Development Act of 1972, April 29, 2002 (7 U.S.C. § 2204b-1(b)).
3
  Congressional Response Report: Washington, D.C., Office of Hearings and Appeals, July 31, 2002
(Limited Distribution).
Page 4 – The Commissioner



                       Some individuals cannot manage or direct the management of
     Integrity of the
                       their finances because of their youth or mental and/or physical
     Representative
                       impairments. Congress granted SSA the authority to appoint
     Payee Process
                       representative payees (Rep Payees) to receive and manage
                       benefit payments for such individuals.4 A Rep Payee may be an
individual or an organization.

SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries
or Supplemental Security Income recipients when representative payments would serve
the individuals’ interests. There are about 5.4 million Rep Payees who manage benefits
for about 7.6 million beneficiaries. Our QR work in this area included the following.

·     We developed a position paper5 on the potential use of “stored value cards” in SSA’s
      Representative Payment Program.

·     We responded to a congressional inquiry on behalf of a constituent regarding
      difficulties experienced with a former Rep Payee.

        Fraud       Fraud is an inherent risk in all of SSA’s core business processes. All
         Risk       of these processes include vulnerabilities that provide individuals
                    opportunities to defraud SSA and/or SSA’s beneficiaries and
recipients. Realizing its responsibility to protect taxpayers’ dollars from losses
associated with fraud and abuse, SSA established the strategic goal “To ensure the
integrity of Social Security programs, with zero tolerance for fraud and abuse.” To
achieve this goal, SSA reported it initiated an anti-fraud program to

·     eliminate wasteful practices that erode the public’s confidence in the Social Security
      system;

·     prosecute individuals or groups who damage the integrity of the programs; and

·     change programs, systems, and operations to reduce instances of fraud.

We have worked with SSA in its efforts to detect and prevent program fraud. Our QR
activities pertaining to this issue included the following.

·     We reported6 to Congress information on SSA’s SmartPay program.

4
    The Social Security Act, as amended, §§ 205(j)(1)(A), 42 U.S.C. 405 and 1631(a)(2)(ii), 42 U.S.C.1383.
5
 Pilot Strategy for the Use of Stored Value Cards in the Social Security Administration’s Representative
Payee Program, August 12, 2002.
6
 Congressional Response Report: The Social Security Administration’s SmartPay Program,
November 6, 2001.
Page 5 – The Commissioner



·   We responded to an inquiry from another Federal agency that pertained to potential
    Government purchase card fraud.

                      Strategic Management of Human Capital is a Government-wide
      Human
                      initiative and is included in the FY 2002 President’s Management
      Capital
                      Agenda. Moreover, the General Accounting Office has designated
                      Human Capital Management as a high-risk area Government-wide.

SSA acknowledges its employees are its most important asset. To this extent, SSA
developed the strategic goal “To be an employer that values and invests in each
employee.” The goal reflects SSA’s conviction that employees deserve a professional
environment in which their dedication to SSA’s mission and their own goals can flourish.
To provide the kind of service that has been the Agency’s hallmark, SSA recognizes it
must maintain a highly skilled, high-performing, and highly motivated workforce.

We received information alleging agency mismanagement. These issues involve:

·   Allegations of mismanagement and abuse at a headquarters’ component. 7

·   Allegations of mismanagement in a field location. 8

In conclusion, this non-traditional ad hoc workload affords us an opportunity to provide
timely, useful data to Congress, SSA management and the general public. In this
regard, we are able to provide the inquirer with an objective, unbiased examination of
the Agency’s programs, operations, policy and/or procedures. This workload is another
facet of my office’s commitment to eliminating fraud, waste, and abuse in SSA’s
operations and programs.




                                                               James G. Huse, Jr

7
 Fact-Finding Report: The Office of Hearings and Appeals’ Procedures for Addressing Allegations of
Mismanagement, March 18, 2002 (Limited Distribution).
8
 Congressional Response Report: Huntington, West Virginia, Office of Hearings and Appeals,
August 28, 2002 (Limited Distribution).
Appendix
                                                                       Appendix A
OIG Contacts and Staff Acknowledgments
OIG Contacts

    Shirley E. Todd, Director, General Management Audit Division
    (410) 966-9365

    Brian Karpe, Lead Auditor, General Management
    (410) 966-1029

Acknowledgements

In addition to those named above:

    Evan Buckingham, Program Analyst

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-03-13031.
                           DISTRIBUTION SCHEDULE




Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Assistant Inspector General for Investigations
Assistant Inspector General for Executive Operations
Assistant Inspector General for Audit
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
